OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
AGRIBUSINESS PROGRAM
AUDIT REPORT NO. E-267-11-002-P
MAY 16, 2011




BAGHDAD, IRAQ
Office of Inspector General


May 16, 2011

MEMORANDUM

TO:                  USAID/Iraq Mission Director, Alex Dickie

FROM:                Office of Inspector General/Iraq, Director, Lloyd J. Miller /s/

SUBJECT:             Audit of USAID/Iraq’s Agribusiness Program
                     (Report No. E-267-11-002-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and modified the report language as appropriate.
Your comments are included in their entirety as Appendix II.

The report contains 17 recommendations to assist the mission in managing the Agribusiness
Program. In its response, the mission agreed with 11 recommendations, disagreed with 2
recommendations and partially agreed with 1 recommendation. The mission is determining the
allowability of questioned costs for the remaining three recommendations.

On the basis of your written comments in response to the draft report, we consider that final
action has been taken on Recommendations 1, 2, and 13; management decisions have been
reached on Recommendations 3, 4, 7, 9, 14, 15, 16, and 17; and no management decisions
have been reached on Recommendations 5, 6, 8, 10, 11, and 12.

Please provide evidence of final action on Recommendations 3, 4, 7, 9, 14, 15, 16, and 17 to
the Audit Performance and Compliance Division upon completion. Please also provide us
within 30 days the additional information related to the actions planned or taken to implement
Recommendations, 5, 6, 8, 10, 11, and 12.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.




U.S. Agency for International Development
USAID/Iraq
Box 47, Unit 2047
APO, AE 09870-2047
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Audit Findings................................................................................................................. 5

          Performance Results Were Not Measured, Reported, or
          Supported.............................................................................................................. 5

          Field Monitoring Was Not Used Effectively ........................................................... 7

          Subcontracts Lacked Supporting Documentation and Were
          Susceptible to Fraud ............................................................................................. 9

          Grants With Special Conditions Were Not Monitored and
          Were Susceptible to Fraud.................................................................................. 11

          Grants to Microfinance Institutions Were Not Monitored..................................... 14

          Program Evaluation Was Not Shared With Contractor ....................................... 16

          Contract Budgeting Did Not Align With Program Areas ...................................... 17

          Performance Management Plan Was Not Current, Not Realistic,
          Not Aligned With Implemented Projects, and Not Used...................................... 18

          USAID/Iraq Did Not Conduct Data Quality Assessments for Key
          Data Reported to USAID Headquarters .............................................................. 20

          Contractor’s Property Accounting System Was Not Approved, and
          Required Reports Were Not Submitted............................................................... 21

Evaluation of Management Comments....................................................................... 23

Appendix I—Scope and Methodology ........................................................................ 29
Appendix II—Management Comments ....................................................................... 31
Appendix III—Subcontracts With Questioned Costs................................................. 38
Appendix IV—Grants With Questioned Costs............................................................ 42

Abbreviations
ADS             Automated Directives System
AIDAR           USAID Acquisition Regulation
CFR             Code of Federal Regulations
COTR            contracting officer’s technical representative
FAR             Federal Acquisition Regulation
FSN             Foreign Service National
PMP             performance management plan
PRT             provincial reconstruction team
SUMMARY OF RESULTS
USAID/Iraq’s agribusiness program began in May 2007.               To implement the program,
USAID/Iraq awarded a $343 million contract 1 to Louis Berger Group Inc. (the contractor) with a
3-year base period, ending April 2010, and 2 option years. In July 2010, USAID/Iraq modified
the contract to lengthen the base period and simultaneously exercise the first option period,
extending the contract to August 2011. This modification also reduced the total estimated costs
to $216 million. According to USAID/Iraq, as of September 30, 2010, $145 million had been
obligated, and $109 million had been disbursed. The purpose of this contract was to expand
the competitiveness of the private sector in the agriculture and agribusiness sectors. To
achieve this goal, the contractor was expected to undertake activities in five program areas:

1. Increased crop diversity and livestock productivity.

2. Delivery of agriculture-related information systems to farmers and food processors.

3. Delivery of sustainable technical programs for soil reclamation and water resources
   management.

4. Increased competitiveness of agribusiness enterprises.

5. Increased domestic and foreign partnerships to improve the commercial successes of new
   and existing Iraqi agribusiness.

The objective of this audit was to determine whether the agribusiness program had achieved its
main goal: to expand the competitiveness of the private sector in the agriculture and agribusiness
sectors. The audit determined that the program had not achieved this goal. Table 1 shows
what Louis Berger Group Inc. was contractually required to achieve during the first 3 years and
the results it reported.
                                   Table 1. Expected and Actual Results

                Expected Result                                            Actual Result
1. Increase agricultural sector productivity
   according to specific target percentages and        The contractor did not measure or report results.
   targeted crops
                                                       The contractor reported $172 million in gross sales,
2. Increase total sales of USAID-assisted
                                                       $128 million—or 43 percent—short of its target. None
   enterprises by at least $300 million
                                                       of these reported sales had adequate documentation.
3. Increase and monitor the value of financial
   resources raised by assisted enterprises (for
   example, agribusiness loans), disaggregating        The contractor did not measure or report results.
   data by type of enterprise, type of ownership,
   and gender
                                                       The contractor reported generating 30,000 new jobs
4. Generate at least 40,000 new agricultural
                                                       (not disaggregated by full-time and part-time), 10,000
   and agribusiness jobs—20,000 full-time and
                                                       jobs (25 percent) short of its target. None of the
   20,000 part-time
                                                       reported new jobs had adequate documentation.
The lack of supportable agribusiness program results can be attributed to several factors,
1
    This was a cost-plus-fixed-fee, level-of-effort contract.


                                                                                                                1
foremost among them mismanagement. Although USAID/Iraq did propose—through the
contract and through approval of the contractor’s performance monitoring plan—a rigorous
methodology for measuring results of the program, the mission and the contractor did not use it
and simply did not focus on managing for results. This was evident through numerous problems
with program implementation:

   Performance results were not measured, reported, or supported (page 5).

   Field monitoring was not used effectively (page 7).

   Subcontracts costing $9.8 million lacked adequate documentation and were susceptible to
    fraud (page 9).

   Grants costing $6.9 million with special conditions were not monitored and were susceptible
    to fraud (page 11).

   Grants costing $6.3 million that were awarded to microfinance institutions were not
    monitored (page 14).

   USAID/Iraq’s evaluation of the agribusiness program was not shared with contractor
    management (page 16).

   The contract budget was changed so that it did not align with program areas (page 17).

   The performance management plan was not current, not realistic, not aligned with
    implemented projects, and not used to manage the program (page 18).

   USAID/Iraq did not perform required data quality assessments on key data reported to
    USAID headquarters (page 20).

   The contractor’s property accounting system was not approved, and required annual reports
    on government property were not submitted (page 21).

Because of these problems, USAID/Iraq did not track whether the agribusiness program’s goals
were on schedule, behind schedule, or not on schedule for achievement. Without such
knowledge, the mission was unable to manage the contract effectively or measure the impact
that activities had on the achievement of program goals.

According to the USAID/Iraq contracting officer’s technical representative (COTR), the mission
was working to address the issues identified in the audit and was in the process of (1) finalizing
work plans for fiscal years 2010–2011, (2) making arrangements to perform data quality
assessments on the results reported by the contractor, and (3) revising the contractor’s
performance management plan. All are positive steps.

The audit recommends that USAID/Iraq:

1. Establish mechanisms to verify the contractor’s significant reported results (page 7).

2. Increase program oversight through the remainder of Option Period 1 to verify that the
   contractor focuses on expected results (page 7).



                                                                                                2
3. Require its contracting officer’s technical representatives (COTRs) to provide activity
   managers with copies of applicable sections of contracts and agreements to improve their
   ability to measure progress against expected results (page 9).

4. Require the contractor to comply with its internal procedures to support claimed subcontract
   costs, and verify the contractor’s completed actions (page 11).

5. Suspend payments to the contractor for costs related to subcontracts until implementing
   actions are completed for Recommendation 4 (page 11).

6. Determine the allowability of and collect, as appropriate, $9,805,244 in questioned,
   unsupported costs for 19 identified subcontracts that were also susceptible to fraud
   (page 11).

7. Require the contractor to comply with its internal procedures and grant requirements in the
   contract by developing an adequate records system to support claimed grant costs, and
   verify the contractor’s completed actions (page 14).

8. Suspend payments to the contractor for costs related to grants until implementing actions
   are completed for Recommendation 7 (page 14).

9. Make a complete inventory of grants awarded by the contractor since program inception,
   review grant files to ensure that documentation is adequate to support procurement and
   monitoring requirements, and question and collect amounts for those grants not adequately
   supported (page 14).

10. Determine the allowability of and collect, as appropriate, $6,947,938 in questioned,
    unsupported costs for the five identified grants with special conditions (page 14).

11. Determine the allowability of and collect, as appropriate, $6,296,758 in questioned,
    unsupported costs for the three identified grants to microfinance institutions (page 16).

12. Determine whether evaluations issued during fiscal years 2009 and 2010 have all been
    appropriately shared with implementing partners, and if not, immediately share the
    evaluation results (page 16).

13. Determine what kind of budget and financial reports will support the mission’s oversight role,
    and instruct the contractor to provide reports that meet this need (page 18).

14. Require the contractor to update the performance management plan so that it contains
    realistic targets and aligns with planned projects to clearly measure progress against
    expected results, and approve the updated performance management plan in writing (page
    20).

15. Conduct a data quality assessment of contractor performance indicators for increased gross
    sales and jobs created (page 21).

16. Require that the contractor submit its property accounting system for approval, and
    determine whether that system is acceptable for managing government property according
    to USAID Acquisition Regulation requirements (page 22).



                                                                                                3
17. Require the contractor to submit annual property reports for government property for 2007,
    2008, 2009, and 2010 according to USAID Acquisition Regulation requirements (page 22).

Detailed findings appear in the following section. Our evaluation of management comments is
on page 23. Appendix I contains a description of the audit scope and methodology. Appendix II
contains the full text of management comments.




                                                                                            4
AUDIT FINDINGS
Performance Results Were Not
Measured, Reported, or Supported
The Government Accountability Office’s Standards for Internal Control in the Federal
Government 2 states that “all transactions and other significant events need to be clearly
documented and the documentation should be readily available for examination.” According to
USAID’s Automated Directives System (ADS) 203.3.5.1, “Data Quality Standards,” for data to
be reliable, there should be consistent methods of collection and analysis over time so that if the
data collection and analysis were repeated by different analysts, they would come to the same
conclusion.

Aggregate Results. Contrary to the guidance, the contractor did not measure or report
performance results on two of the four contract expected results and did not support results
reported for the other two:

     Increase agricultural sector productivity. The contractor did not establish a methodology for
      measuring results. Therefore, although targets were established, they were not based on a
      documented analysis of existing conditions that included required surveys and baseline
      data.

     Increase financial resources for agribusiness such as agribusiness loans. The contractor
      never measured or reported results.

     Increase agribusiness gross sales by $300 million. The contractor reported results that were
      not supported, and data was not readily available for review.

     Generate 40,000 new jobs in the agriculture/agribusiness sectors. The contractor reported
      results. However, these results were not supported, and results data was not readily
      available for review.

Asked by auditors for support for the two reported results, the contractor required 2 months to
provide a list of implemented projects to support gross sales and new jobs data.

Results for Individual Projects. As of January 2010, the contractor had reported results for 13
of 57 projects. However, the contractor did not comply with the data collection and analysis
methodologies defined in the performance management plan; instead, the contractor used
several methods (none documented) to derive the project results shown in Table 2.




2
    GAO/AIMD-00-21.3.1, November 1999.


                                                                                                 5
                     Table 2. Agribusiness Projects With Reported Results*

                                                     Cost        Gross Sales
                       Project                                                     Jobs Generated
                                                      ($)            ($)
    1.    Feed grain project                           76,938         109,125             none
    2.    Winter crop project                       1,622,112       3,818,290               196
    3.    Vegetable seed project                      540,900      67,046,186             3,600
    4.    Retail farmers' market project              327,420            none               508
    5.    Greenhouse project                           35,985             500                50
    6.    Tomato demonstration project                 30,404         448,720               432
    7.    Barley demonstration project                 50,000           none              1,040
    8.    Wheat seed distribution project             706,000      20,843,045            10,800
    9.    Packing shed project                        459,300         204,503                20
    10.   Fish farm rehabilitation project            593,700      12,850,000               530
    11.   Fish-farming project                      5,066,181      51,272,500            11,342
    12.   Canning factory revitalization project    5,078,631      15,103,245               636
    13.   Mushroom farm project                       623,287          15,280                52
          Total                                    15,210,858     171,711,394            29,206
    * We reviewed available documentation for all reported results. In addition, we visited 6 of the 13
    projects covering 90 percent of the reported sales and 68 percent of the reported jobs generated.

A vegetable seed project reported gross sales of $67 million (#3 in Table 2). The project
entailed distributing free seeds to about 900 farmers within 1,200 square miles. The contractor
derived gross sales based on the assumption that 100 percent of the seeds planted would yield
vegetables and would be sold at an estimated price. However, the contractor could not provide
support for this estimated price, the yields, or the amount of land planted.

A wheat seed distribution project (#8 in Table 2) reported $21 million in gross sales and 10,800
jobs generated. For documentation, the contractor provided a spreadsheet used to track sales
and a photocopy of a document entitled “QI 01Oct 2009 – 30 Dec 2009.” According to the
spreadsheet, the increase in gross sales through the seed distribution was $8.3 million. The
document reported $21 million in gross sales derived from the $8.3 million adjusted with a
multiplier 3 of 2.5. The same situation applied to jobs generated, where the spreadsheet
reported 5,400 jobs created before applying a 2.0 multiplier. No evidence supporting the
spreadsheet data was provided. The distribution occurred at five locations, yet the contractor
reported the exact same number of sales and jobs for each location. This uniformity, combined
with the lack of supporting documentation, indicated a lack of validity for reported results.
According to the USAID provincial reconstruction team (PRT) representative in Babel, the
project was a free seed distribution project with no subsequent monitoring.



3
  Multipliers for sales and jobs were introduced in the contractor’s third annual work plan for May 2009–
April 2010. Multipliers were not included in the performance monitoring plan or in prior-year work plans.
The multipliers were based on the work of John Mellor, an agricultural economist. According to the work
plan, which uses Mellor’s 1998 data from Egyptian economic resurgence, each new dollar in agriculture
should generate $2.50 in additional rural incomes. The work plan used a multiplier of 2.0 for jobs,
estimating that each job created would indirectly create two additional jobs. We did not assess whether
the use of multipliers was appropriate or whether the multipliers of 2.5 and 2.0 were correct.


                                                                                                          6
Other examples were the fish farm rehabilitation project and the fish-farming project, which
reported $64,122,500 in combined gross sales and 11,872 total jobs generated (#10 and #11 in
Table 2). For documentation, the contractor provided a photocopy of a single piece of paper
entitled “QI 2009 01Oct 2008 – 31 Dec 2008.” According to this piece of paper, the actual
increase in gross sales through the fish farm rehabilitation project was $5.1 million (before
applying the 2.5 multiplier), and jobs created numbered 265 (again before applying the 2.0
multiplier). No other supporting documentation was provided. The owner stated that the
business had not provided sales receipts to the agribusiness program and also acknowledged
that the contractor had not requested the total number of jobs created. For the fish-farming
project, the contractor applied a different methodology for collecting and analyzing data. One
hundred farmers were provided fish and some equipment. Reported results were supported by
a survey of 16 farmers to determine how many fish they received and how much they received
for each fish sold. Reported sales totaled $20,509,000 before the contractor applied a 2.5
multiplier, but no documentation was available to support the total sales figure reported. In
addition, no support was available for the 11,342 jobs created.

Although a rigorous methodology was outlined in the contractor’s performance monitoring plan,
it was not realistic and not used. USAID officials did not receive results, did not enforce the
requirement for reporting results, and did not monitor the results that were reported to ensure
that they had adequate support. Over the 3-year period of contract implementation, this
contract had five different COTRs, each lasting an average of 7 months. Contractor officials
could not explain why the performance monitoring plan was ignored. The last two USAID/Iraq
COTRs both stated that the performance monitoring plan was not useful—one calling it an
inflexible document, and the other acknowledging that it needed to be revised. Complicating
oversight was the lack of files documenting oversight essential to program implementation.
Documentation that is essential to project oversight—such as proof of the COTR’s inspection
and receipt or acceptance of deliverables, and copies of other performance records—was not
included in the files. As a consequence, USAID/Iraq could not determine the progress or lack of
progress of the contractor to achieve expected results. Given the problems with program
implementation and performance, existing oversight roles are not sufficient. Therefore, we
make the following recommendations.

   Recommendation 1. We recommend that USAID/Iraq establish mechanisms to verify
   the contractor’s significant reported results.

   Recommendation 2. We recommend that USAID/Iraq increase program oversight
   through the remainder of Option Period 1 to verify that the contractor focuses on
   expected results.

Field Monitoring Was Not Used
Effectively
In May 2009, USAID/Iraq issued Mission Order 202-3-4-3, “Roles and Responsibilities of USAID
Provincial Reconstruction Team (PRT) Representatives as Activity Managers.” The mission
order outlined the responsibilities of USAID PRT representatives as activity managers to
achieve foreign assistance results in their geographic areas of responsibility. Given the
complexity and size of USAID/Iraq programs, the mission order intended to promote a
decentralized oversight role. The responsibilities for the USAID PRT representatives included:




                                                                                             7
   Helping assess impact.
   Identifying important changes.
   Providing analysis and advice on program implementation.
   Tracking performance inputs.
   Monitoring performance, including adherence to work plans, and visiting project sites.

Although the contract does not require Louis Berger to provide documents to PRT
representatives, the mission order directs all implementing partners to provide copies of all their
quarterly progress and performance reports to the USAID PRT representatives. To fulfill their
roles, USAID PRT representatives must have key information. For example, to properly
understand and advise on an activity, the PRT representative should have a detailed description
of the activity, including the anticipated inputs, the anticipated outputs, and how those outputs
are to be achieved. Similarly, project work plans and quarterly progress and performance
reports are crucial to properly monitoring ongoing project performance and results.

However, in many cases, the PRT representatives were not receiving these and other essential
documents (such as the basic contracts and agreements). For example, a PRT representative
reported being unable to obtain a copy of the work plan despite several requests to the
contractor and the COTR. According to the PRT representative, the contracting officer stated
that the decision to distribute work plans was a decision for the COTR. Additionally, having
asked the contractor for information on site locations, the PRT representative did not receive
that information until after the activities had started. Another PRT representative said that it
took almost 1 year for the contractor to provide information such as how much money was being
spent on projects in the area, the purpose of the projects, which projects related to the work
plan, and which projects were completed or ongoing. The PRT representative further stated
that an official working for the contractor said that it was the representative’s responsibility to
find the farmers in the areas for grants—not the contractor’s responsibility.

The problems stemmed from the PRT representatives having to rely on the implementing
partners to provide documents to them. As a consequence, PRT representatives stated that
they were limited in their ability to fulfill their responsibilities as activity managers, including on-
site monitoring.

In their written response to the draft audit report (Appendix II), mission officials stated that the
current mission orders referenced would no longer be valid as of June 2011 because the PRT
office will be closing. Mission officials also stated that they would agree with a modified
recommendation that new mission guidance requires that activity managers should receive a
copy of applicable sections of contracts and agreements, such as the scope of work, and
required deliverables, as a means to improve their ability to measure progress against expected
results.

The mission further stated in its response that the distribution of implementing partners’
performance reports is governed by requirements contained in contracts and agreements.
During the performance of this audit, the audit team noted that PRT representatives were not
able to obtain timely information from either the COTR or the implementing contractor.
However, mission officials noted that the situation has greatly improved, and the COTR has now
established a close working relationship with both the PRT representatives and the newly hired
Foreign Service National activity managers. As a result, the COTR is now providing the
information to the PRT representatives and Foreign Service National staff that they need to
measure progress against expected results.



                                                                                                      8
Therefore, recognizing that the situation has changed, we are making the following
recommendation:

    Recommendation 3. We recommend that USAID/Iraq require its contracting officer’s
    technical representatives to provide activity managers with copies of the applicable
    sections of contracts and agreements, such as the scope of work, and required
    deliverables to improve their ability to measure progress against expected results.

Subcontracts Lacked Supporting
Documentation and Were Susceptible to Fraud
Federal Acquisition Regulation (FAR) 31.201-2(d) states:

       A contractor is responsible for accounting for costs appropriately and for
       maintaining records, including supporting documentation, adequate to
       demonstrate that costs claimed have been incurred, are allocable to the contract,
       and comply with applicable cost principles in this subpart and agency
       supplements. The contracting officer may disallow all or part of a claimed cost
       that is inadequately supported.

In addition, Louis Berger has an internal procurement manual, Purchasing and Subcontracting
Business Policy and Procedures, which guides the contractor’s federally funded procurements.
The manual requires (1) specific file formats for any purchase order or subcontract over
$10,000, (2) a purchase requisition for any purchase over $1,000, and (3) at least two bids for
all procurements over $3,000. According to the contractor’s manual, the files are to provide
complete and accurate documentation of the history of the procurement transaction.

To comply with requirements, each subcontract file should contain the following information:

   The approved purchase requisition
   The written solicitation (where required)
   The written responses to requests for proposals or requests for quotations
   A memorandum justifying sole-source procurement (if no competition)
   A technical evaluation
   A price and cost analysis
   A memorandum of negotiations
   The basis of the award form
   A copy of purchase orders or subcontracts and all change orders
   Insurance certifications
   Copies of suppliers’ invoices
   Correspondence, internal and external, related to the purchase order and subcontract




                                                                                               9
   Other purchase order and subcontract documentation as required by the purchase orders
    and subcontracts’ terms and conditions
   The final contractor release forms
   A procurement documentation checklist indicating the documentation in the file

Table 3 lists the 19 subcontracts, costing $9.8 million, that were not supported.

        Table 3. List of Agribusiness Projects With Questioned Subcontract Costs

                                                            Questioned Costs
                                 Project
                                                                   ($)
                1. Feed grain project                              76,938
                2. Winter crop project                          1,622,112
                3. Vegetable seed project                          540,900
                4. Greenhouse project                               35,985
                5. Tomato demonstration project                     30,404
                6. Barley demonstration project                     50,000
                7. Wheat seed distribution project                 706,000
                8. Fish farm rehabilitation project                593,700
                9.    Fish-farming project                       5,066,181
                10.   Date workshop                                 21,620
                11.   Butcher's focus group survey                   3,171
                12.   Poultry industry overview update              21,000
                13.   Crop land survey                              95,370
                14.   Agriculture exposition                       130,719
                15.   Cold-chain assessment                          3,910
                16.   Refrigerated capacity survey                   5,000
                17.   Bank training project                         40,000
                18.   Windmill project                              33,797
                19.   Orchard and vineyard project                 728,437
                      Total                                      9,805,244


According to the contractor’s procurement manual, the files are to provide a complete and
accurate documentation of the history of the procurement transaction. The following three
examples illustrate the information contained in the files for each subcontract. Appendix III
describes the files for all 19 subcontracts.

(1) The feed grain project cost $76,938 (#1 in Table 3). The documentation in the
    procurement files consisted of (1) a copy of the subcontract, (2) a copy of a voucher with
    an accompanying purchase order for $7,750 to another company that was subcontracted
    to the first subcontractor, and (3) a copy of a work order from the PRT. No other
    documentation was available. The contractor’s payment records did not identify payments
    of $76,938 to the vendors.




                                                                                           10
(2) The winter crop project cost $1,622,112 (#2 in Table 3). The documentation in the
    procurement files consisted of (1) a copy of one subcontract for $87,403, (2) a copy of a
    subcontract modification, (3) a copy of the project implementation plan, and (4) a copy of a
    work order from the PRT. In addition, the contractor’s payment records showed that cash
    was disbursed to two subcontractors in the amounts of $87,403 and $1,534,709. Although
    there was a copy of the subcontract for $87,403, the contractor was unable to provide a
    copy of the other subcontract for $1,534,709.

(3) The fish-farming project cost $5,066,181 (#9 in Table 3). The documentation in the
    procurement files consisted of (1) a subcontract awarded to the Euphrates Fish Farm to
    provide 6 million carp fingerlings at a cost of $3,000,000, (2) nine purchase orders for
    palletized feed to the same Euphrates Fish Farm totaling $770,250, (3) four additional
    purchase orders totaling $81,680. These three items do not sum to the project cost of
    $5,066,181. Furthermore, the contractor’s payment records did not identify payments to
    the subcontractor.

Because the other subcontracts had a similar lack of support, we are identifying the costs
incurred under all 19 subcontracts as questioned costs for contracting officer determination.
Further, the absence of supporting documentation has made Louis Berger program
procurements susceptible to unintentional errors, loss, misappropriation, and fraud. For
example, fraud could be occurring without detection in the procurement phases outlined in the
Office of Inspector General/Office of Investigations Fraud Indicators Handbook: identification of
needs for goods or services, development of statements of work and specifications,
presolicitation phase, solicitation phase, evaluation of bids and proposals, award of the contract,
negotiation of the contract, and the postaward phase. 4 As a consequence, the audit team
makes the following recommendations.

    Recommendation 4. We recommend that USAID/Iraq (1) require the contractor to
    comply with its internal procedures by developing an adequate records system to
    support claimed subcontract costs and (2) verify the contractor’s completed actions.

    Recommendation 5. We recommend that USAID/Iraq suspend payments to the
    contractor for costs related to subcontracts until implementing actions are completed for
    Recommendation 4.

    Recommendation 6. We recommend that USAID/Iraq’s Office of Acquisition and
    Assistance determine the allowability of and collect, as appropriate, $9,805,244 in
    questioned, unsupported costs for the 19 identified subcontracts.

Grants With Special Conditions
Were Not Monitored and Were
Susceptible to Fraud
The Code of Federal Regulations (22 CFR 226.14, “Special Award Conditions”) states that if an
applicant or recipient has:



4
   The USAID Office of Inspector General’s Fraud Indicators Handbook is available online:
http://www.usaid.gov/oig/hotline/fraud_awareness_handbook_052201.pdf.


                                                                                                11
        a history of poor performance, is not financially stable, has a management system
        that does not meet the standards prescribed in this part, has not conformed to the
        terms and conditions of a previous award, or is not otherwise responsible, the
        USAID Agreement Officer may impose additional requirements as needed,
        provided that such applicant or recipient is notified in writing as to: The nature of
        the additional requirements, the reason why the additional requirements are being
        imposed, the nature of the corrective action needed, the time allowed for
        completing the corrective actions, and the method for requesting reconsideration of
        the additional requirements imposed. Any special conditions will be promptly
        removed once the conditions that prompted them have been corrected.

ADS 303.3.9.2, “High Risk Recipients,” notes that although 22 CFR 226 is not directly
applicable to awards to non-U.S. organizations, the standards in 22 CFR 226 may be used for
non-U.S. recipients. ADS also notes that an agreement officer may consider making a high-risk
award with “special award conditions” only if it appears likely that the potential recipient can
correct its deficiencies in a reasonable period of time. To minimize the risk of such awards, the
following temporary conditions may be added: (1) special award conditions and (2) technical
assistance to the recipient.

The contract laid out specific requirements for the contractor in awarding and managing grants,
regardless of recipient. The requirements are as follows.

   The contractor shall comply in all material respects with ADS Chapter 303, “Grants and
    Cooperative Agreements to Non-Governmental Organizations,” in awarding and
    administering grants, as well as with 22 CFR 226 (Agency for International Development
    Part 226—“Administration of Assistance Awards to U.S. Non-Governmental Organizations”)
    to the extent that it may be relevant to such grants.

   Prior USAID approval must be obtained for grants in accordance with ADS 302.5.6.

   The COTR must approve the criteria for and selection of all grantees.

   These grants will be awarded competitively. 5 Limited competition may be considered.
    However, a program description and a list of prospective applicants must be approved by
    the cognizant technical officer.

   Contracting officer approval is required for all grants over $100,000.

   Minimum evaluation criteria will be proposed by the contractor and approved by USAID.

   The contractor will carry out any necessary preaward actions with respect to the proposed
    grantees, such as financial reviews and an assessment of management capability, in
    accordance with criteria to be provided by USAID.

   The contractor will ensure postaward management—reporting, audits, etc.—in accordance
    with USAID directives and policies.

5
  USAID approved a waiver to competition requirements. The contractor’s memorandum of negotiations
for these grants does not mention this existing waiver, and USAID/Iraq had not modified the contract with
Louis Berger to conform with the waiver.


                                                                                                      12
The contractor awarded five grants with special conditions; the grants had questioned costs
amounting to approximately $7 million as listed in Table 4.

             Table 4. Questioned Costs Under Grants With Special Conditions

                                                             Questioned Costs
                                 Grant
                                                                    ($)
              1.   Retail farmers’ market project                  327,420
              2.   Canning factory revitalization project        5,078,631
              3.   Mushroom farm project                           623,287
              4.   Packing shed project at Rabee                   459,300
              5.   Packing shed project at Taji                    459,300
                   Total                                         6,947,938

The regular grant conditions common to these five grants and grantees were monthly financial
reports; three grantees (the exceptions being the two packing shed grants) were required to
submit monthly progress reports. Each of the grant agreements outlined detailed parameters
for these reports. For example, the packing shed grant agreements required the monthly
financial reports to show prior-period expenses, current month’s expenses, current-period
expenses, remaining budget balance, and percentage of remaining budget balance. The
mushroom farm project grant agreement required a monthly progress report to show the
number of persons employed full-time and part-time, segregated by gender and product line; the
cost and amount of agricultural inputs procured and produce produced; equipment utilization
records; maintenance reports for all equipment procured under this grant based on the
manufacturer’s recommended operation and maintenance procedures; activity logs for each
product line; and a summary of completed infrastructure rehabilitation activity and projected
activity for the next 30 days.

In addition to these regular grant conditions, each of the five grants included special conditions.
For example, the grant agreement for the retail farmers’ market project required periodic
implementation meetings, site visits to view progress toward project objectives, and acceptable
management and accounting/financial control systems. In addition, the agreements for the two
packing shed grants required the special conditions of technical assistance to establish and
maintain management, accounting, purchasing, property management, and personnel systems.
The contractor was supposed to have assisted the grantees by providing technical assistance
for a period not to exceed 2 months. After 2 months, a survey was to determine improvement
and whether the recipient had the necessary management competence to plan and carry out
the assistance program. If the grantee’s competence could not be determined, the award would
be subject to cancellation.

Aside from USAID/Iraq approving all five grants as required and the contractor having a plan to
conduct audits of the grants, the contractor did not adhere to the contract requirements or to the
five grant requirements including special conditions. The contractor did not monitor the grants
or retain support for the grants, as illustrated in the following example.

The canning factory revitalization project cost $5,078,631 (#2 in Table 4). The contractor’s
project files showed no documentation that the contractor had monitored or evaluated the
grantee’s performance or reports as required. Furthermore, the contractor did not monitor
adherence to special conditions of the grant, including acceptable management, accounting,



                                                                                                13
and financial control systems. USAID/Iraq hired a consultant to provide technical and business
advice to the canning factory, to coordinate a revitalization of the tomato line, and to work with
the factory manager to develop a business plan and to create a regional marketing strategy.
Despite these efforts, the consultant’s report stated that “Most of the line should not be restarted
because the equipment and facilities that house them are not fit to handle human food.”

Appendix IV describes the files for all five grants. In addition, other grants may have existed,
but the contractor’s accounting records obscure their existence.

FAR 31.201-2(d) states that a contractor is responsible for accounting for costs appropriately
and for maintaining records, including supporting documentation, adequate to demonstrate that
costs claimed have been incurred, are allocable to the contract, and comply with applicable cost
principles. The contracting officer may disallow all or part of a claimed cost that is inadequately
supported. Contractor staff could not explain why contract and grant requirements were not
monitored.

Louis Berger did not adequately support these five grants, and the absence of supporting
documentation has made the grants susceptible to unintentional errors, loss, misappropriation,
and fraud. Consequently, we are identifying the grants as questioned for contracting officer
determination, and we make the following recommendations.

    Recommendation 7. We recommend that USAID/Iraq (1) require the contractor to
    comply with its internal procedures and grant requirements within the contract by
    developing an adequate records system to support claimed grant costs and (2) verify the
    contractor’s completed actions.

    Recommendation 8. We recommend that USAID/Iraq suspend payments to the
    contractor for costs related to grants until implementing actions are completed for
    Recommendation 7.

    Recommendation 9. We recommend that USAID/Iraq make a complete inventory of
    grants awarded by the contractor from program inception, review grant files to ensure
    that documentation is adequate to support required procurement and monitoring
    requirements, and question and collect amounts for those grants not adequately
    supported.

    Recommendation 10. We recommend that USAID/Iraq’s Office of Acquisition and
    Assistance determine the allowability of and collect, as appropriate, $6,947,938 in
    questioned, unsupported costs for the five identified grants with special conditions.

Grants to Microfinance Institutions
Were Not Monitored
The USAID/Iraq contract with Louis Berger contains the following requirements for all grants:

   The contractor shall comply in all material respects with ADS Chapter 303, “Grants and
    Cooperative Agreements to Non-Governmental Organizations,” in awarding and
    administrating grants, as well as with 22 CFR 226 (Agency for International Development
    Part 226—“Administration of Assistance Awards to U.S. Non-Governmental Organizations”)
    to the extent that it may be relevant to such grants.


                                                                                                 14
   Prior USAID approval must be obtained for grants in accordance with ADS 302.5.6.

   The COTR must approve the criteria for and selection of all grantees.

   These grants will be awarded competitively. Limited competition may be considered.
    However, a program description and a list of prospective applicants must be approved by
    the cognizant technical officer.

   Contracting officer approval is required for all grants over $100,000.

   Minimum evaluation criteria will be proposed by the contractor and approved by USAID.

   The contractor will carry out any necessary preaward actions with respect to the proposed
    grantees, such as financial reviews and an assessment of management capability, in
    accordance with criteria to be provided by USAID.

   The contractor will ensure postaward management—including reporting, audits, etc.—in
    accordance with relevant regulations and with USAID directives and policies.

The contractor awarded three grants valued at $6.3 million to microfinance institutions (Table 5).

           Table 5. Questioned Costs Under Grants to Microfinance Institutions

                                Grant                         Questioned Costs
                                                                     ($)
              1. Micro-Finance-Iraq Company for                   1,050,000
                 Small and Medium Enterprise
              2. Al-Thiq Micro-Finance Program                     4,068,912
              3. Izdiharona Micro-Finance Program                  1,177,846
                  Total                                            6,296,758

The three grant agreements included both common and unique requirements for each grantee.
The common grant requirements were the monthly submission of reports on financial status,
loan status, and portfolio at risk, as well as the income statement and balance sheet. In
addition, the microfinance institutions were required to submit quarterly outreach reports
showing the volume of clients by type of service and by geographic location. Besides these
recurring reports, each grant included unique requirements, such as one directing that all
repayments for loans were to be redirected into further farm credits.

Apart from USAID/Iraq approving all three microfinance grants as required and the contractor
having a plan to conduct audits of the grants, the contractor did not adhere to the contract
requirements or to the three grants’ specific requirements. In addition, the contractor did not
monitor the individual grant requirements.

FAR 31.201-2(d) states that a contractor is responsible for accounting for costs appropriately
and for maintaining records, including supporting documentation, adequate to demonstrate that
costs claimed have been incurred, are allocable to the contract, and comply with applicable cost
principles. The contracting officer may disallow all or part of a claimed cost that is inadequately




                                                                                                15
supported. These three grants were not adequately supported, and we are identifying them as
questioned for contracting officer determination.

      Recommendation 11. We recommend that USAID/Iraq’s Office of Acquisition and
      Assistance determine the allowability of and collect, as appropriate, $6,296,758 in
      questioned, unsupported costs for the three identified grants to microfinance institutions.

Program Evaluation Was Not
Shared With Contractor
ADS 203.3.6.7, “Responding to Evaluation Findings,” states that USAID mission staff should
share and openly discuss evaluation findings, conclusions, and recommendations with relevant
stakeholders, including partners, unless there are compelling reasons for not doing so. The
Office of Inspector General/Iraq’s “Audit of USAID/Iraq’s Monitoring and Evaluation
Performance Program,” 6 noted that USAID/Iraq had not shared an evaluation report with the
implementer of the local governance program despite USAID requirements. Based on the
audit’s recommendation, USAID/Iraq issued Mission Order 08-10-01, reiterating the ADS
requirements.

Even so, USAID/Iraq had not shared or openly discussed a March 2009 evaluation of the
agribusiness program with the contractor. The contractor’s chief of party for the agribusiness
program stated that the results of the evaluation were never shared with him; the contracting
officer did not know whether the results were shared or discussed with the contractor. The
evaluation results included:

     The agribusiness program was still a program without a clear purpose despite almost
      two-thirds of the planned program life completed.

     The program lacked a clear program vision and a consistently articulated statement of
      program goals, objectives, technical activities, geographic focus, and expected impact.

Furthermore, the evaluation reported that program implementation was complicated by
relentless short-termism and an emphasis on immediate action in support of political and
strategic objectives. The evaluation report also stated that (1) the timing of agricultural
development activities depends on the crop cycles, and a focus on short-term results corrupts
the long-term process needed to address root problems and (2) as a result, program
implementation tries to balance short-term compelling demands for action with the longer-term
activities needed to achieve development impact.

Had it been aware of the evaluation results, the contractor could have worked with USAID/Iraq
to fix the problems that were hampering the accomplishment of the program’s goals.
Furthermore, USAID/Iraq paid $25,000 for this evaluation. Particularly in light of USAID’s
increased emphasis on evaluation, not sharing evaluation results renders written procedures
pointless, defeats the purpose of these evaluations, and squanders government funds.

      Recommendation 12. We recommend that USAID/Iraq review its evaluations issued
      during fiscal years 2009 and 2010 to determine whether they have all been appropriately
      shared with implementing partners, and if not, immediately share the evaluation results.

6
    Audit Report No. E-267-08-004-P, July 3, 2008.


                                                                                                    16
Contract Budgeting Did Not Align
With Program Areas
ADS 200.3.2, “Guiding Principles,” identifies “Managing for Results” as one of the five guiding
principles for performing work and achieving development results all over the world. Managing
for results means that USAID seeks to define and organize its work around the end result it
seeks to accomplish. The original May 2007 contract for the agribusiness program included
eight budget categories, five of which aligned with the program areas as follows.

1. Increase crop diversity/livestock productivity.

2. Deliver in-country agriculture-related information systems to farmers and food processors.

3. Deliver sustainable technical programs for soil reclamation and water resources
   management.

4. Increase competitiveness of agribusiness enterprises.

5. Increase domestic and foreign partnerships to improve the commercial successes of new
   and existing Iraqi agribusiness.

6. Security.

7. Grants.

8. Fee.

In addition, the contract linked the four intermediate results to each of the five program areas.
As a result, the program budget was linked to the performance management plan, the results
framework, and expected results.

However, in both February and September 2008, USAID/Iraq modified the contract and
realigned the budget according to eight cost categories used in the contractor’s accounting
system. According to a USAID/Iraq internal memorandum, the contract modification was
intended to provide the contractor greater flexibility. The eight new cost categories were:

1.   Labor and fringe
2.   Allowances
3.   Overhead
4.   Travel, transportation, and per diem
5.   Other direct costs
6.   Subcontractors
7.   Grants
8.   Fixed fee

As a result of the budget modification, USAID/Iraq did not have the ability to monitor costs by
program area or to track the budgetary consequences for expected results by program area.

In addition to the budget misalignment, the contractor and USAID/Iraq employed other
budgeting practices that limited effective oversight. For example, a September 2008 contract



                                                                                                17
modification required the contractor to submit monthly financial reports for the contract and each
subcontract showing disbursements and accruals to date, budget estimates, subcontract
obligations, change orders, anticipated change orders, and estimated cost to complete.
However, the contractor did not comply with the requirement to submit monthly financial
statements for both the contract and subcontracts until June 2010.

In addition, two budget-related recommendations from a prior audit of USAID/Iraq’s
agribusiness program 7 dated September 30, 2008, were not effectively implemented. The
report recommended that USAID/Iraq reprogram any funds remaining from the $5 million
allocated to the master’s degree activity and put them to better use. The mission agreed with
the recommendation, discontinued the master’s degree program, and stated that the $5 million
would be put to better use. The mission did not, however, provide information as to how the
$5 million was put to better use.

The prior report also recommended that the contractor submit financial reports on spending by
commodity cluster activities, which were further breakdowns of program areas. The mission
agreed with the recommendation and developed a new financial reporting format. A contract
modification required the contractor to submit the commodity cluster financial report monthly
starting on October 15, 2008. However, as of May 2010, the COTR was unaware of the
reporting requirements of the financial reports. In July 2010, the contractor provided eight
reports covering the period September 2009 to April 2010. However, the report dated
September 2009 was a listing of projects without financial data, and the remaining reports did
not align with the intermediate results that the program was expected to accomplish.

The mission’s budgetary practices have hindered program oversight. Contract modifications
provided the contractor with flexibility at the expense of USAID/Iraq program oversight and, as a
result, obscured the budget allocation of program costs and their resulting impact.

      Recommendation 13. We recommend that USAID/Iraq determine budget and financial
      reporting formats that will support its oversight role and instruct the contractor to provide
      budget and financial reports that meet this need.

Performance Management Plan Was Not
Current, Not Realistic, Not Aligned With
Implemented Projects, and Not Used
According to ADS 200.6, “Definitions,” performance management is the systematic process of
monitoring the achievements of program operations; collecting and analyzing performance
information to track progress toward planned results; using performance information and
evaluations to influence decision making and resource allocation; and communicating results
achieved or not attained. ADS also states that a performance management plan is a tool to
plan and manage the process of assessing and reporting progress. Although ADS 203.3.3
notes that there is no prescribed format for the performance management plan, it should include
a set of performance indicators; provide baseline values and targeted values; disaggregate
performance indicators by sex whenever possible; specify data sources; data collection
methods; a schedule for data collection; and describe known data limitations, data quality
assessment procedures, estimates of the cost of collecting, analyzing, and reporting
performance data, and possible evaluation tasks.

7
    Audit Report No. E-267-08-006-P, September 30, 2008.


                                                                                                      18
The contract included a results framework that served as the basis for the contractor to develop
a performance management plan. The contractor developed its first performance management
plan in September 2007 and developed a second, revised performance management plan in
October 2008. Both plans included the elements outlined in ADS. However, the contractor had
not updated the performance management plan since October 2008, resulting in its being
out-of-date. In addition, the contractor’s performance management plan was not realistic, not
aligned with implemented projects, and not used.

The October 2008 performance management plan was outdated. It continued to include two
defunct projects to increase the sales and exports of dates and pomegranates. The
performance management plan for dates stated that the project was expected to lead to the
exportation of 3,000 tons of dates (with an estimated value of $810,000) to Dubai and India in
2008. In 2009, date exports were expected to increase to 25,000 tons at a value of $7.5 million.
However, the contractor’s work plans for that same period stated that market studies showed an
oversupply of dates and date-processing capacity in the Gulf region. The work plan further
noted that the date strategy would need a complete revision. A contractor official noted that the
agribusiness program no longer had a date program because the dates were of low quality and
there was no export market. However, the performance management plan still reflects the
export of dates as a project goal.

As for pomegranates, the performance management plan stated that the project results would
lead to the exportation of 100 tons of pomegranates (at a value of $180,000) to Dubai in 2008.
In 2009, pomegranates exports were expected to increase to 500 tons at a value of $900,000.
A contractor official noted that this project had not been successful because of transportation
difficulties in Iraq and was no longer being implemented. However, the performance
management plan had not been updated to reflect this change.

The October 2008 performance management plan contained performance measures that were
not realistic and, in some cases, not useful. Several of the planned performance indicators did
not realistically account for the difficulties of programming in Iraq. Examples follow:

   Several performance indicators required verification of sales invoices from farmers and other
    agribusiness owners to determine increases in agribusinesses’ gross sales. However, in
    Iraq, farm owners and business people are not accustomed to sharing sensitive financial
    information with others, including local Iraqi monitors for the agribusiness program. During
    audit site visits to several agribusiness projects, farm and business owners refused to
    produce verifiable financial records to support gross sales generated from projects because
    they feared government interference and possible danger, including kidnapping. In addition,
    it was apparent that owners of small rural farms did not keep records of sales through
    receipts or invoices because transactions were conducted with cash.

   Another indicator was intended to measure the increase in gross sales of fish. However, the
    indicator did not consider the affordability of feed, which was freely provided through a
    voucher program. Several farmers said that the feed voucher program was very successful
    because it made feed affordable for their fish farm business. However, these farmers were
    concerned that, after the voucher program ended, the price of feed would be too expensive.
    This indicator did not consider the sustainability of the fish farm project without the free feed
    inputs.




                                                                                                  19
   Another indicator was intended to measure the development of a new market agricultural
    information system that would provide wholesale prices of major agricultural commodities
    from 18 wholesale markets across Iraq daily. The contractor expended over $800,000 on
    this effort. However, according to the USAID/Iraq COTR, the system was not working and
    was not sustainable.

   Other indicators were intended to measure the number and value of loans to agribusinesses
    by private banks receiving agribusiness program grants. However, the method outlined in
    the performance management plan for collecting data on the indicators states that the
    contractor will track grants to private sector banks for agricultural credit, not the number and
    value of loans to agribusiness by the banks receiving the grant.

Because the October 2008 performance management plan was not an agile management tool,
the COTR did not use it. Instead, the COTR stated that he used a performance management
plan annex in the work plan to track results. The contractor prepared annual work plans that
were intended to align with the October 2008 performance management plan. Yet the
contractor’s quarterly performance reports simply summarized quarterly activities and did not
report annual results against the targets in the performance management plan or the annual
work plans. Although the contractor completed various agribusiness projects, they did not align
with the October 2008 performance management plan or the annual work plans.

USAID/Iraq did not enforce the requirement to report results against the performance
management plan at least quarterly. One of the obvious effects is that USAID/Iraq was not
aware of the program’s progress against expected results. Although one of the program
COTRs 8 developed an ad hoc reporting system for the contractor to show progress on two
significant expected results—increase gross sales and generate new jobs—this system
excluded two other expected results.

    Recommendation 14. We recommend that USAID/Iraq (1) require the contractor to
    update the performance management plan so that it contains realistic targets and aligns
    with planned projects to clearly measure progress against expected results and (2)
    approve the updated performance management plan in writing.

USAID/Iraq Did Not Conduct Data
Quality Assessments for Key Data
Reported to USAID Headquarters
ADS 203.3.5.2, “Purpose of Data Quality Assessments,” states that the purpose of a data
quality assessment is to ensure that the USAID mission staff are aware of the strengths and
weaknesses of data, according to five data quality standards—validity, integrity, precision,
reliability, and timeliness—and are aware of the extent to which the data integrity can be trusted
to influence management decisions. Data reported to Washington for Government Performance
and Results Act reporting purposes or for reporting externally on USAID performance must have
had a data quality assessment within the 3 years before submission. USAID missions may
choose to conduct data quality assessments more frequently if needed. Managers are not
required to do data quality assessments on all performance indicators that they use. However,
managers should be aware of the strengths and weaknesses of all indicators.

8
  From May 2007, USAID/Iraq used six contracting officer’s technical representatives, although only one
at a time.


                                                                                                    20
USAID/Iraq reported some results of the agribusiness program in its Fiscal Year 2009 Full
Performance Plan and Report to Washington, D.C. In that report, USAID/Iraq stated that, by
assisting individual entrepreneurs, major commercial producers, and producer associations, the
program had increased gross revenue to more than $50,000,000 and created 3,500 new jobs.
The mission did not have support for these reported results.

In October 2008, a contractor hired by USAID/Iraq to assess the performance management plan
for the agribusiness program issued its final report. The report included data quality
assessments of indicators measuring lower-level results, such as number and value of loans,
percentage of program-assisted association members trained, and percentage of program-
assisted farmers using improved technology. However, the report did not include a data quality
assessment of the indicators increase total sales of program-assisted enterprises and increase
employment in the agricultural/agribusiness sectors. These two indicators were described as
mission-level indicators—the highest level. The report characterized the data quality of these
two indicators as “unknown” and further stated: “Needs a DQA [data quality assessment] to
assess the source materials for sales. If these come from audited business accounts then
reliability is good; otherwise it may be questionable.” Apart from the data quality assessment
performed in October 2008, USAID/Iraq had not performed a data quality assessment on any
data related to sales increases or job creation.

Because of turnover among mission staff, the audit team could not determine why the October
2008 report did not include data quality assessments for sales and jobs. Nevertheless,
USAID/Iraq reported results externally that cannot be supported according to the standards
expected for USAID data quality.

Increasing gross revenue and creating jobs are the two key results that the contractor is
expected to achieve. The quality of this data should reflect all five of USAID’s data quality
standards—validity, integrity, precision, reliability, and timeliness. A rigorous data quality
assessment can help ensure the accuracy of the data reported. Therefore, we make the
following recommendation.

   Recommendation 15. We recommend that USAID/Iraq conduct a data quality
   assessment of contractor performance indicators for increased gross sales and jobs
   created.

Contractor’s Property Accounting
System Was Not Approved, and
Required Reports Were Not Submitted
USAID Acquisition Regulation (AIDAR) 752.245-71, “Title to and Care of Property,” sets forth a
contract clause, included in the contract with Louis Berger Group, Inc. under which contractors
must prepare and establish a program, to be approved by the mission, for the receipt, use,
maintenance, protection, custody, and care of nonexpendable property for which it has custodial
responsibility, including the establishment of reasonable controls to enforce such a program.

AIDAR 752.245-70 also requires the contractor to submit an annual report on all nonexpendable
property. The contractor needs to attest that physical inventories of government property are
taken at least annually, accountability records for government property agree with inventories,
and the total of the accountability records agrees with the property values.


                                                                                            21
ADS 629.3.3.2, “Property Accounting Systems for Contractors,” also states that USAID does not
prescribe a specific system of property accounting for contractors. However, any system
employed by a contractor requires written approval by the cognizant property administrator.
This process ensures adequate contractor control, accuracy, and consistency in reported
information. In addition, the USAID COTR is responsible for:

   Monitoring the contractor’s management of government property.

   Reporting annually on government property and any property acquired by the contractor for
    use in the contract.

   Verifying the return or disposition of government property.

However, USAID/Iraq officials were uncertain (1) whether the contractor’s system to manage
government property had been approved by USAID and (2) whether the contractor had
submitted the required annual reports. Contractor officials, too, were uncertain about the status
of the required approval and required annual reports until September 2010, when they
acknowledged that the system had not been approved and that the reports for 2007, 2008,
2009, and 2010 had not been submitted. The contractor stated that it was in the process of
preparing a letter for approval in accordance with the requirements, as well as the required
annual reports.

Because of the mission officials’ uncertainty, the mission did not ensure that the property
accounting system had been submitted for approval. As a result, USAID/Iraq does not know
whether the contractor’s property accounting system can be relied on to account for
nonexpendable government property from acquisition to disposal. The mission did not know of
the existence of significant assets (such as vehicles, furniture, photographic equipment)
procured with program funds, much less whether they were being utilized as intended.
Furthermore, the absence of approved reports on nonexpendable property has made program
assets susceptible to unintentional errors, loss, and misappropriation and made such
irregularities harder to detect. In addition, USAID/Iraq did not monitor program funds that were
expended on nonexpendable property. (The contractor has provided estimates of government-
funded property from $1.6 million to $2.2 million but was unable to provide support for the
estimates.) Had the system been reviewed and approved by USAID and reports provided,
USAID would have had assurances of adequate contractor control and accuracy in reported
information.

    Recommendation 16. We recommend that USAID/Iraq (1) require the contractor to
    submit its property accounting system for approval and (2) determine whether that
    system is acceptable for managing government property according to USAID Acquisition
    Regulation requirements.

    Recommendation 17. We recommend that USAID/Iraq require the contractor to submit
    annual property reports for government property for 2007, 2008, 2009, and 2010
    according to USAID Acquisition Regulation requirements.




                                                                                              22
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Iraq agreed with 11 of the 17 recommendations in its response to the draft audit report.
On the basis of the information provided in the mission’s response, we determined that final
action has been taken on Recommendations 1, 2, and 13, and management decisions have
been reached for Recommendations 3, 4, 7, 9, 14, 15, 16, and 17. Management decisions for
Recommendations 5, 8, and 12 can be reached when we agree with USAID/Iraq on firm plans
of action, with timeframes for implementing the recommendations. Management decisions for
Recommendations 6, 10, and 11 can be reached when USAID/Iraq determines the allowability
of questioned costs identified in the draft audit report.

Recommendation 1. The draft report recommended that USAID/Iraq establish mechanisms to
verify the contractor’s significant reported results.

USAID/Iraq has taken steps to establish mechanisms to verify the contractor’s results. In doing
so, USAID/Iraq now works with the PRT representatives and the locally hired Foreign Service
National (FSN) staff to verify the results reported by the contractor. Furthermore, because of
the COTR’s improved working relationship with the FSN staff, the COTR is now able to notify
the contractor’s chief of party as soon as problems are brought to the COTR’s attention by the
FSN staff so that concerns and potential problems concerning verification of results can be
addressed immediately.

Final action has been taken on this recommendation.

Recommendation 2. The draft report recommended that USAID/Iraq increase program
oversight through the remainder of Option Period 1 to verify that the contractor focuses on
expected results.

USAID/Iraq has taken steps to increase the program’s oversight and to verify that the contractor
focuses on expected results. To resolve the issues identified pertaining to the lack of focus by
the contractor on expected results, USAID/Iraq approved the hiring of a new monitoring and
evaluation specialist with 13 years of work experience in agricultural development that included
recent work experience in postconflict areas. Additionally, the COTR is making frequent field
site visits (most recently to the fish farms in Babel) to discuss with fish farm owners the
importance of keeping proper records to account for sales. These actions, together with
ongoing discussions between the COTR and the monitoring and evaluation specialist, have
substantially increased USAID/Iraq’s oversight abilities to verify that the contractor is focusing
on expected results.

Final action has been taken on this recommendation.

Recommendation 3. The draft report recommended that USAID/Iraq revise Mission Order
202-3-4-3 to change the responsibility for distribution of performance reports from the
implementing partner to the contracting officer’s technical representative and to require that
provincial reconstruction team representatives also receive basic contracts and agreements with
which they can assess progress against contractual or agreement requirements.



                                                                                               23
The mission agreed to a modified recommendation since Mission Order 202-3-4-3 will no longer
be valid at the end of June 2011. The mission agreed to incorporate in future guidance on the
roles of activity managers a statement that they should receive copies of the applicable sections
of a contract or an agreement to assess progress against contractual or agreement
requirements.

We recognize that Mission Order 202-3-4-3, “Roles and Responsibilities of the USAID Provincial
Reconstruction Team Representatives as Activity Managers,” will no longer be valid at the end
of June 2011. We also recognize the importance of activity managers receiving a copy of the
applicable sections of a contract or agreement so they can assess progress against contractual
or agreement requirements. We acknowledge that the COTR is now providing the information
to the PRT representatives and FSN staff that they need to measure progress against expected
results.

According to mission officials, they are hiring new staff to take over activity manager
responsibilities from the PRT representatives. Once the hiring process is completed and the
roles and responsibilities are defined, the mission plans to update the mission order for activity
managers. The mission provided a target date of completion for the updated mission order of
December 31, 2011. Therefore, we have modified our recommendation to state that
USAID/Iraq should require COTRs to provide activity managers with copies of applicable
sections of contracts and agreements, such as the scope of work, and required deliverables as
a means to improve their ability to measure progress against expected results.

A management decision has been reached on this recommendation.

Recommendation 4. The draft report recommended that USAID/Iraq (1) require the contractor
to comply with its internal procedures by developing an adequate records system to support
claimed subcontract costs and (2) verify the contractor’s completed actions.

The mission agreed with the recommendation to require the contractor to comply with its
internal procedures that would provide adequate records to support claimed subcontract costs.
According to mission officials, they have emphasized to the contractor the need to properly
document all subcontractor costs and completed actions. Mission officials have gone to the
contractor’s office to review project documents and have scheduled additional trips to the
contractor’s office in June 2011. In response to the draft report, the mission stated that the
contractor is making substantial progress in compiling its records to document and support
subcontract costs. The mission expects to complete its review of supporting documentation for
claimed subcontracts costs by December 31, 2011.

A management decision has been reached on this recommendation

Recommendation 5. The draft report recommended that USAID/Iraq suspend payments to the
contractor for costs related to subcontracts until the implementing actions were completed under
Recommendation 4.

The mission disagreed with the recommendation to suspend payments because of the short
project life span remaining in relation to the number of subcontracts outstanding. In its written
response, the mission referenced an administrative agreement between USAID and the
contractor dated November 5, 2010. Under the agreement, the contractor outlined reforms and
remedial actions that included improving the transparency and accuracy of its accounting
system and financial controls related to government contracts, improving internal controls and


                                                                                               24
its related compliance, making significant personnel changes, and reviewing policies and
procedures.

We acknowledge that this contract expires in August 2011. However, as previously stated, the
contractor is currently compiling its records to document support costs that were incurred
between July 2007 and January 2009 (approximately two and half years after the fact).
Furthermore, our audit conclusion is still applicable—that the absence of supporting
documentation has made the subcontracts susceptible to unintentional errors, loss,
misappropriation, and fraud.

Therefore, due to the absence of auditable supporting records as of May 2011, we continue to
recommend the suspension of costs until actions implemented under Recommendation 4 are
completed.

No management decision has been reached on this recommendation.

Recommendation 6. The draft report recommended that USAID/Iraq’s Office of Acquisition
and Assistance determine the allowability of and collect, as appropriate, $9,805,244 in
questioned, unsupported costs for the 19 identified subcontracts.

The contracting officer has requested information in support of the subcontract costs from the
contractor. The contracting officer and other mission officials have also visited the contractor’s
office three times over the last 30 days to review the contractor’s files, and officials plan more
trips in June 2011. The contractor is currently compiling its records, and the contracting officer
is expected to make a determination regarding questioned costs by December 31, 2011.

No management decision has been reached on this recommendation.

Recommendation 7. The draft report recommended that USAID/Iraq (1) require the contractor
to comply with its internal procedures and grant requirements within the contract by developing
an adequate records system to support claimed grant costs and (2) verify the contractor’s
completed actions.

The mission agreed with the recommendation to require the contractor to comply with its
internal procedures. According to mission officials, they are currently reviewing supporting
records to verify the contractor’s compliance with its procedures to maintain adequate
supporting records. The mission anticipates the completion of the review by December 31,
2011.

We also acknowledge that an approved waiver to competition requirements existed during the
period under audit when the grants in question were issued. Although we disclosed our findings
to mission officials on November 28, 2010, the waiver was not brought to our attention until April
18, 2011. Additionally, during our review of the contractor’s memorandum of negotiations for
these grants, no mention was made of this existing waiver for the contractor’s basis of the grant
awards, and this contract requirement under Section C.5 had not been modified to comply with
the waiver when this waiver was still effective. We modified our report to reflect the existence of
the waiver but did not alter our audit result because other examples illustrated that the
contractor did not monitor or retain support for the grants awarded under this contract.

A management decision has been reached on this recommendation.



                                                                                                25
Recommendation 8. The draft report recommended that USAID/Iraq suspend payments to the
contractor for costs related to grants until implementing actions are completed for
Recommendation 7.

The mission disagreed with the recommendation to suspend payments because of the short
project life span remaining in relation to the number of subcontracts outstanding. In its
response, the mission referenced an administrative agreement between USAID and the
contractor dated November 5, 2010. Under the agreement, the contractor outlined reforms and
remedial actions that included improving the transparency and accuracy of its accounting
system and financial controls related to government contracts, improving internal controls and
its related compliance, making significant personnel changes, and reviewing policies and
procedures.

We acknowledge that this contract expires in August 2011. However, as previously stated by
the mission, the contractor is currently compiling records to document support costs that were
incurred between July 2007 and January 2009 (approximately two and half years after the fact).
Furthermore, our audit conclusion is still applicable—that the absence of supporting
documentation has made the grants susceptible to unintentional errors, loss, misappropriation,
and fraud.

Therefore, due to the absence of auditable supporting records as of May 2011, we continue to
recommend the suspension of costs until actions implemented under Recommendation 7 are
completed.

No management decision has been reached on this recommendation.

Recommendation 9. The draft report recommended that USAID/Iraq make a complete
inventory of grants awarded by the contractor from program inception, review grant files to
ensure that documentation is adequate to support required procurement and monitoring
requirements, and question and collect amounts for those grants not adequately supported.

The mission agreed with the recommendation and will require the contractor to submit a
complete inventory of grants awarded to be spot-checked by USAID/Iraq. Additionally, the
mission will require that a sample of grants be reviewed in the incurred cost audits to ensure
that documentation is adequate to support procurement and monitoring requirements and to
question and collect for those grants not adequately supported. The mission expects this action
to be completed by December 31, 2011.

A management decision has been reached on this recommendation.

Recommendation 10. The draft report recommended that USAID/Iraq’ Office of Acquisition
and Assistance determine the allowability of and collect, as appropriate, $6,947,938 in
questioned, unsupported costs for the five identified grants.

The contracting officer has requested information in support of the grant costs from the
contractor. The contracting officer and other mission officials have also visited the contractor’s
office three times over the last 30 days to review the contractor’s files, and officials plan more
trips in June 2011. The contractor is currently compiling its records, and the contracting officer
is expected to make a determination regarding questioned costs by December 31, 2011.

No management decision has been reached on this recommendation.


                                                                                               26
Recommendation 11. The draft report recommended that USAID/Iraq’s Office of Acquisition
and Assistance determine the allowability of and collect, as appropriate, $6,296,758 in
questioned, unsupported costs for the three identified grants to microfinance institutions.

The contracting officer has requested information in support of the grant costs from the
contractor. The contracting officer and other mission officials have also visited the contractor’s
office three times over the last 30 days to review the contractor’s files, and officials plan more
trips in June 2011. The contractor is currently compiling its records, and the contracting officer
is expected to make a determination regarding questioned costs by December 31, 2011.

No management decision has been reached on this recommendation.

Recommendation 12. The draft report recommended that USAID/Iraq review its evaluations
issued during fiscal years 2009 and 2010 to determine whether they have all been appropriately
shared with implementing partners, and if not, immediately share the evaluation results.

The mission partially agreed with the recommendation. We recognize that it has been 2 years
since the March 2009 evaluation of the agribusiness program was completed, and we also
acknowledge that the mission has shared the 2010 evaluation results of the agribusiness
program with the contractor. However, the recommendation applies to other existing
USAID/Iraq programs that had evaluations completed in fiscal years 2009 and 2010 but had not
been shared with the implementers. We discussed the clarification of the recommendation with
mission officials, and they disagreed that Recommendation 12 should be applied to all
USAID/Iraq programs that had evaluations performed during fiscal years 2009 and 2010.
Nevertheless, the mission position is contrary to USAID guidance (ADS 203.3.6.7, “Responding
to Evaluation Findings,”) and its own Mission Order 08-10-01.

No management decision has been reached on this recommendation.

Recommendation 13. The report recommended that USAID/Iraq determine budget and
financial reporting formats that will support its oversight role, and instruct the contractor to
provide reports that meet this need.

The mission agreed with the recommendation, and the contractor is now regularly submitting
the commodity cluster financial report that was required since September 2008. We also
recognize that the COTR is monitoring costs under subcontracts and grants awarded to
implement program projects by using additional monthly tracking summaries provided by the
contractor.

Final action has been taken on this recommendation.

Recommendation 14. The draft audit report recommended that USAID/Iraq (1) require the
contractor to update the performance management plan so that it contains realistic targets and
aligns with planned projects to clearly measure progress against expected results and (2)
approve the updated performance management plan in writing.

The mission agreed with the recommendation and updated its performance management plan
(PMP) as of March 14, 2011. We acknowledge that the PMP indicators are now clearly
reflected and linked to the current annual work plan for fiscal years 2010-2011. We also
acknowledge that the two strategic objectives reflected in the program’s results framework as


                                                                                               27
described in the PMP are now also reflected in the contract under Modification 13.
Furthermore, we understand the ongoing challenges faced by the program to obtain verifiable
results to measure progress against expected results due to lack of formal records kept by
project grantees and subcontractors to record sales accurately. The COTR is working on
solutions to the record-keeping issue and expects to finalize the PMP by July 31, 2011.

A management decision has been reached on this recommendation.

Recommendation 15. The draft report recommended that USAID/Iraq conduct a data quality
assessment of the contractor performance indicators for increased gross sales and jobs
created.

The mission agreed with the recommendation. We acknowledge that a data quality assessment
for all program indicators was performed, including performance indicators for gross sales and
jobs created. We also acknowledge that the results of the data quality assessment were
submitted to USAID/Iraq in January 2011 and are pending approval by the COTR by July 31,
2011.

A management decision has been reached on this recommendation.

Recommendation 16. The draft report recommended that USAID/Iraq (1) require that the
contractor submit its property accounting system for approval and (2) determine whether that
system is acceptable for managing government property according to USAID Acquisition
Regulation requirements.

The mission agreed with the recommendation. Mission officials also agreed that the contractor
did not have an approved property accounting system and stated that it was one of the systems
currently being updated by the contractor in order to meet the terms of the administrative
settlement in November 2010 between USAID and the contractor. We acknowledge that, under
an administrative settlement between USAID and the contractor reached in November 2010, the
contractor’s accounting policies and procedures are being revised to ensure that cost
accounting by the contractor is true, accurate, and complete and follows the applicable federal
statutes and regulations. The mission expects to complete final action on this recommendation
by March 31, 2012.

A management decision has been reached on this recommendation.

Recommendation 17. The draft report recommended that USAID/Iraq require the contractor to
submit annual property reports for government property for 2007, 2008, 2009, and 2010
according to USAID Acquisition Regulation requirements.

The mission agreed with the recommendation, and has tasked the contractor to provide the
required summaries for years 2007 through 2010 to comply with USAID Acquisition Regulation
requirements. The mission expects to complete final action on this recommendation by
December 31, 2011.

A management decision has been reached on this recommendation.




                                                                                            28
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis. The objective of this audit was to determine whether the
agribusiness program had been achieving its main goal: to expand the competitiveness of the
private sector in the agriculture and agribusiness sectors.

The audit covered the first 3 years of implementation of the agribusiness program from inception
in May 2007 through May 2010. We collected and reviewed evidence at three levels—
USAID/Iraq; the implementing contractor (Louis Berger Group); and individual recipients in
Balad, Babel, and Taji. At USAID/Iraq, we reviewed the contract and all modifications, two
program evaluations done in March 2009 and July 2010, contractor performance reports
prepared by USAID/Iraq, available COTR files, financial data, data quality assessments, the
2009 annual performance report, vouchers submitted by the contactor, two mission orders for
monitoring and evaluation, and site reports submitted by USAID PRT members. We also
interviewed two contracting officers, two COTRs, ten USAID/Iraq PRT members, two program
managers, the head of the financial management office, the head of the program office, and the
head and deputy of the provincial reconstruction office. At the office of the contractor, we
reviewed the performance management plan, annual work plans, weekly activity reports,
quarterly activity reports, procurement files, project files for subcontracts and grants, payment
records, and copies of subcontracts and grants. We also interviewed the chief of party, deputy
chief of party, the monitoring and evaluation manager, the procurements manager and staff, the
finance manager, the director of operations, three area managers, and the property manager.
At various locations, we interviewed direct recipients of subcontracts and grants. We also
interviewed U.S. Government officials with the U.S. Department of Agriculture and one deputy
team leader of the PRT.

We identified and reviewed the internal controls at both USAID/Iraq and the contractor that were
significant to answer the audit objective. At USAID/Iraq, we reviewed controls for results
reporting as required by the contract, portfolio reviews by USAID/Iraq management, consent to
subcontract by the contractor, voucher reviews and approvals, designation letters outlining the
responsibilities of COTRs, monitoring requirements from two mission orders, incremental
funding increases corresponding to contract modifications, preparing contractor performance
reports, the appropriation source of funding that corresponded to program area, property system
approvals, and submission of annual property reports. At the contractor, we reviewed controls
for data collection including required subrecipient reporting, results reporting including the
performance management plan, procurement procedures for subcontracts and grants,
procedures to account for property, monitoring and evaluation procedures, and arranging for
audits of subrecipients.

We also reviewed findings and recommendations from prior audits by the Office of Inspector
General/Iraq, including the July 2008 “Audit of USAID/Iraq’s Monitoring and Evaluation




                                                                                              29
                                                                                        Appendix I


Performance Program” 9 and the September 2008 “Audit of USAID/Iraq’s Agribusiness
Program.” 10 We also reviewed four prior audits by the Defense Contract Audit Agency.

We conducted our audit at USAID/Iraq in Baghdad, the contractor’s office in the red zone of the
Mansoor District of Baghdad, and the following geographic locations—Balad, Babel, and Taji.
At these locations, we visited and examined 21 USAID-funded projects.

     At Balad, we visited the canning factory project.

     At Babel, we visited the Middle East Fish Farm Training Center, the Middle East Fish Farm
      Ponds, the Middle East Fish Farm Hatcheries, the Middle East Fish Farm trainees, the
      surrounding areas of the fish ponds, the sheep feedlot office, the sheep feedlots, the forage
      lots, the citrus orchard, the Euphrates Fish Farm training center and business offices, and
      the Euphrates Fish Farm fish-farming facilities and ponds.

     At Taji, we examined the sheep feedlot, the windmill, the fruit and vegetable packing shed in
      Taji, the fruit and vegetable packing shed in Rabee, two forklift trucks, the date palm
      orchard, two strawberry fields, a grape vineyard, and a citrus and plum orchard.

We conducted our audit from November 23, 2009, to November 28, 2010. However, the
commencement of fieldwork was delayed until February 14, 2010, because the contractor was
unable to provide requested documentation to support reported results. The audit covered all
program elements of the agribusiness program with total estimated lifetime costs of $216
million. According to USAID/Iraq, as of September 30, 2010, $145 million had been obligated
and $109 million had been disbursed. According to contractor records, $16 million was
expended for security costs and $40 million for 57 projects. We did not review security costs
except to determine whether the amounts were reasonable.

Methodology
To answer the audit objective, we reviewed the expected results from the contract. Elements of
the expected results were also transferred to the contractor’s performance management plan,
but the contractor did not report directly against the plan. The contract established four
expected results. For two of the four, “increase agriculture sector productivity” and “increase
financial resources for agribusiness such as agribusiness loans,” the contractor did not report
results. According to the contacting officer’s technical representative, monitoring focused on the
other two results measuring increased sales and new jobs in the agriculture/agribusiness
sectors.” As a result, we also focused our audit fieldwork on these areas with contractor-
reported results. For both gross sales and new jobs, the contractor required 2 months to
provide a list of implemented projects to support program goals. The list consisted of 57
projects, as of January 2010. Of these 57 projects, 19 were completed, of which 13 projects
reported results. For these 13 projects, we reviewed original documentation for all reported
results. In addition, we visited 6 of the 13 projects covering 90 percent of the reported sales and
68 percent of the reported jobs generated. At the mission, we reviewed activities that would
support monitoring and the review of reported results. Specifically, we reviewed ADS-required
portfolio reviews, evaluations, data quality assessments, program reporting to USAID
headquarters, and mission monitoring.

9
    Audit Report No. E-267-08-004-P, July 3, 2008.
10
     Audit Report No. E-267-08-006-P, September 30, 2008.


                                                                                                30
                                                                                       Appendix II



MANAGEMENT COMMENTS

                                                                                    April 20, 2011
MEMORANDUM
UNCLASSIFIED

TO:            Pam Hamilton, Acting Director Office of Inspector General/Iraq

THROUGH: Alex Deprez, Deputy Mission Director

FROM:          Alex Dickie, Mission Director /s/

SUBJECT:       Management Response to Draft Audit Report E-267-11-00-X-P


REFERENCE: Office of Inspector General (OIG)/Iraq draft report entitled “Audit of
USAID/Iraq’s Agribusiness Program” transmitted to the Mission Director dated March 2, 2011

Thank you for the opportunity to comment on the referenced draft audit report of USAID’s
Agribusiness Program. This program began in May 2007 and continued to operate during a
period of intensive armed conflict in Iraq. While ambitious targets may not have been met,
significant progress was and continues to be made. The audit has highlighted problems that the
Mission and the contractor are aggressively rectifying. The performance monitoring plan has
already been updated as recommended in the audit and is being tracked by the Contracting
Officer’s Technical Representative (COTR). Staff from the USAID/Iraq Office of Acquisition
and Assistance (OAA) and Financial Management Office (FMO) visited the contractor's office
three times in the past 30 days to meet with management and to review the files. Preliminary
indications are that the contractor has proper documentation to support claimed costs and
compliance with contracting and grant requirements; however, the documentation is spread
among various files and it is a matter of gathering the documents into files that can be reviewed
and audited. Both the Mission and the contractor take this matter seriously, have taken
corrective actions and will continue to closely monitor this process.

On November 5, 2010 an administrative agreement 11 was signed between USAID and Louis
Berger Group, Inc. (LBG). The agreement outlines LBG’s reforms and remedial actions that
include improving the transparency and accuracy of its government contracts related accounting
system and financial controls, internal controls and its related compliance, significant personnel
changes and, review of policies and procedures.


11
  Administrative Agreement between United States Agency for International Development and The Louis
Berger Group, Inc. signed on November 5, 2011


                                                                                                31
Recommendation No. 1:

We recommend that USAID/Iraq establish mechanisms to verify the contractor’s significant
reported results.

Management Comments: The Mission agrees with the recommendation. The performance
management plan (PMP) has been updated and is tracked closely by the COTR. Local Iraqi staff
are being employed to verify reported results through field inspections. The COTR now
provides regularly updated lists of activities to each USAID Provincial Reconstruction Team
(PRT) representative, along with geographic grid coordinates, to facilitate access by each
representative to activity sites. The COTR also sends lists of questions that the representatives
should use in assessing program performance during site visits, receives feedback from the
representatives, then asks the contractor chief of party to respond and, if appropriate, implement
a solution. Feedback is then provided to the PRT representative.

Based on the above, USAID deems that a management decision has been reached on
Recommendation No. 1 and final action has been taken. Therefore, we request the closure of
this recommendation upon issuance of this report.

Recommendation No. 2:

We recommend that USAID/Iraq increase program oversight through the remainder of Option
Period 1 to verify that the contractor focuses on expected results.

Management Comments: The Mission agrees with the recommendation. The contractor has
employed a monitoring and evaluation specialist with enhanced skills in this area, and a resume
for this person is available for inspection. The PMP has been updated and the COTR is meeting
frequently with the contractor’s monitoring and evaluation specialist to review progress toward
expected results.

Based on the above, USAID deems that a management decision has been reached on
Recommendation No. 2 and final action has been taken. Therefore, we request the closure of
this recommendation upon issuance of this report.

Recommendation No. 3:

We recommend that USAID/Iraq revise Mission Order 202-3-4-3 to change the responsibility for
distribution of performance reports from the implementing partner to the contracting officer’s
technical representative and to require that provincial reconstruction team representatives also
receive basic contracts and agreements so that they can assess progress against contractual or
agreement requirements.

Management Comments: The Mission disagrees with the recommendation as currently written.
The majority of the PRT representatives will depart post by the end of May 2011 and the PRTs
begin closing in June 2011. Therefore, the Mission Order 202-3-4-3 ‘Roles and Responsibilities
of the USAID Provincial Reconstruction Team Representatives as Activity Managers’ will no



                                                                                               32
longer be valid. It will not be cost effective to use the time and energy of a government
employee and expend taxpayers’ dollars to modify a Mission Order that dies in two months. We
recognize the importance of activity managers receiving a copy of the applicable sections of a
contract or agreement so they can assess progress against contractual or agreement requirements.

Based on the above, USAID would agree to a modified recommendation to incorporate into any
future guidance on roles and responsibilities of activity managers a statement that they should
receive a copy of applicable sections of contract and agreements, such as the scope of work and
required deliverables as a means to improve their ability to measure progress against expected
results. The distribution of performance reports from the implementing partners are governed by
requirements contained in contracts and agreements.

Target date to incorporate this into new guidance: December 31, 2011.

Recommendation No. 4:

We recommend that USAID/Iraq (1) require the contractor to comply with its internal
procedures by developing an adequate records system to support claimed subcontract costs, and
(2) verify contractor completed actions.

Management Comments: The Mission agrees with the recommendation. Mission personnel
are reviewing the documentation and work of the project on a regular basis to ensure compliance.
USAID has emphasized to the contractor the need to properly document all subcontractor costs
and completed actions. Staff from the Office of Acquisition and Assistance (OAA) and the
Financial Management Office (FMO) has visited the contractor three times in the past 30 days to
review its files. Additional visits by OAA and FMO are planned for the end of April and the end
of June 201. The contractor is making substantial progress in this area.

Target date for completion: December 31, 2011.

Recommendation No. 5:

We recommend that USAID/Iraq suspend payments to the contractor for costs related to
subcontracts until implementing actions are completed for Recommendation 4.

Management Comments: The Mission does not agree with the recommendation due to the
project lifespan remaining in relation to the number of subcontracts outstanding. However, the
Mission will continue to provide close oversight of subcontract implementation and costs. As
noted supra, the contractor is making substantial progress compiling its’ records that document
and support the subcontract costs.

Recommendation No. 6:

We recommend that USAID/Iraq’s Office of Acquisition and Assistance determine the
allowability of and collect, as appropriate, $9,805,244 in questioned, unsupported costs for 19
identified subcontracts.


                                                                                                  33
Management Comments: The Contracting Officer has requested information from the
implementing partner and has visited the site three times in the last 30 days with additional staff
from OAA and FMO. As noted supra, the contractor is making substantial progress compiling
its’ records that document the questioned costs. Additional visits by OAA and FMO are planned
for the end of April and the end of June 2011.

Target date for completion: December 31, 2011.

Recommendation No. 7:

We recommend that USAID/Iraq (1) require the contractor to comply with its internal
procedures and grant requirements within the contract by developing an adequate records
system to support claimed grant costs, and (2) verify contractor completed actions.

Management Comments: The Mission agrees with the recommendation. USAID/Iraq is
reviewing the documentation and work of the project on a regular basis to ensure compliance.
Staff from OAA and FMO has visited the contractor three times in the past 30 days to review its
files. The contractor is making substantial progress in this area. Additional visits by OAA and
FMO are planned for the end of April and the end of June 2011.

It should also be noted that on January 16, 2003 pursuant to ADS 303.3.6.5.i, the then Acting
Administrator approved an indefinite exception waiver, to the competition requirements for
making assistance awards. This waiver was reviewed and approved annually and has been in
effect through March 10, 2010. This is because making such awards without the delay of the
standard competitive process was determined to be critical to the objectives of the U.S. Foreign
Assistance Program in Iraq. On February 10, 2008, the Contracting Officer authorized the
COTR to consent to the issuance of grants under the INMA Program.

Target date for completion: December 31, 2011.

Recommendation No. 8:

We recommend that USAID/Iraq suspend payments to the contractor for costs related to grants
until implementing actions are completed for Recommendation 7.

Management Comments: The Mission does not agree to the recommendation due to the project
lifespan remaining in relation to the number of sub-grants outstanding. However, the Mission
will continue to provide close oversight of grant implementation and costs. It is important to
note that the contractor is making substantial progress in this area and that the program is
changing its focus to more technical assistance than issuance of grants under the contract.

Recommendation No. 9:

We recommend that USAID/Iraq make a complete inventory of grants awarded by the contractor
since program inception, review grant files to ensure that documentation is adequate to support
procurement and monitoring requirements, and question and collect amounts for those grants
not adequately supported.


                                                                                                34
Management Comments: The Mission agrees to the recommendation. USAID/Iraq will require
the contractor to submit a complete inventory of grants awarded. In addition to the spot checks
to be conducted by the OAA office, a sampling of the grant files will be done during the cost-
incurred audits to ensure that documentation is adequate to support procurement and monitoring
requirements and to question and collect for those grants not adequately supported. In addition,
staff from OAA and FMO has visited the contractor three times in the past 30 days to review its
files and further visits have been planned for the end April and the end of June 2011. The
contractor is making substantial progress in this area.

Target date for completion: December 31, 2011.

Recommendation No. 10:

We recommend that USAID/Iraq’ Office of Acquisition and Assistance determine the allowability
of and collect, as appropriate, $6,947,938 in questioned, unsupported costs for the five identified
grants.

Recommendation No. 11:

We recommend that USAID/Iraq’s Office of Acquisition and Assistance determine the
allowability of and collect, as appropriate, $6,296,758 in questioned, unsupported costs for the
three identified grants to microfinance institutions.

Management Decision to Recommendations No. 10 and 11: The Contracting Officer has
requested information from the implementing partner and has visited the site three times in the
last 30 days with additional staff from OAA and FMO. Further visits by the staff of OAA and
FMO have been planned for the end April and the end of June 2011. As noted supra, the
contractor is making substantial progress compiling its’ records that document the questioned
costs.

Target date for completion: December 31, 2011.

Recommendation No. 12:

We recommend that USAID/Iraq review its evaluations issued during fiscal years 2009 and 2010
to determine whether they have all been appropriately shared with implementing partners, and if
not, immediately share the evaluation results.

Management Comments: The Mission partially agrees with this recommendation. The Mid-
Term Evaluation of the USAID/Iraq Inma Agribusiness Program (INMA) dated March 26, 2009
is considered irrelevant due to the time elapsed. The 2010 evaluations of the agribusiness
program has not been officially approved and issued. However, USAID shared the draft report
with our implementing partner’s Chief of Party on August 29, 2010. Therefore, we kindly
request OIG to acknowledge that final action has been taken and to close this recommendation
upon issuance of this report.




                                                                                                  35
Recommendation No. 13:

We recommend that USAID/Iraq determine budget and financial reporting formats that will
support its oversight role, and instruct the contractor to provide reports that meet this need.

Management Comments: The Mission agrees with the recommendation. Two types of reports
sufficient to support USAID’s oversight role are now routinely submitted to the COTR by the
contractor. One is in the format of a standard invoice summarized by contract CLIN. The other
is a detailed report by commodity cluster. The commodity cluster financial report is particularly
useful to the COTR in exercising oversight over progress within each commodity cluster. We
kindly request OIG to acknowledge that final action has been taken and to close this
recommendation upon issuance of this report.

Recommendation No. 14:

We recommend that USAID/Iraq (1) require the contractor to update the performance
management plan so that it contains realistic targets, aligns with planned projects to clearly
measure progress against expected results, and (2) approve the updated performance
management plan in writing.

Management Comments: The Mission agrees with the recommendation. An updated
performance management plan (PMP) and preliminary approval was given by the COTR on
March 14, 2011. Further review is ongoing by the COTR. It now contains realistic targets and
aligns with planned projects to clearly measure progress against expected results.

Target date for completion: July 31, 2011.

Recommendation No. 15:

We recommend that USAID/Iraq conduct a data quality assessment of contractor performance
indicators for increased gross sales and jobs created.

Management Comments: The Mission agrees with the recommendation. A 2010 update to the
data quality assessment (DQA) for all indicators was performed and submitted in January 2011,
and is pending review and approval by the COTR.

Target date for completion: July 31, 2011.

Recommendation No. 16:

We recommend that USAID/Iraq (1) require that the contractor submit its property accounting
system for approval, and (2) determine whether that system is acceptable for managing
government property according to USAID Acquisition Regulation requirements.

Management Comments: The Mission agrees with the recommendation. The contractor did
not have an approved Property Accounting System; it was one of the systems that were being



                                                                                                  36
updated by the contractor in order to meet the terms of the administrative settlement in
November 2010 between USAID and LBG. This recommendation is currently under review
until the contractor has approval for the system from the agency.

Target date for completion: March 31, 2012.

Recommendation No. 17:

We recommend that USAID/Iraq require the contractor to submit annual property reports for
government property for 2007, 2008, 2009, and 2010 according to USAID Acquisition
Regulation requirements.

Management Comments: The Mission agrees to the recommendation. Property inventories
were recently received by the COTR. However, the summary form, which totals the value of
property by type, is not yet on file. The contractor has been tasked to provide the required
summary forms for years 2007 through 2010 and has indicated that the reports will be
transmitted to USAID.

Target date for completion: December 31, 2011.




                                                                                               37
                                                                                   Appendix III



SUBCONTRACTS WITH
QUESTIONED COSTS
                Agribusiness Projects With Questioned Subcontract Costs

                                                         Questioned Costs
                             Project
                                                                ($)
               1. Feed grain project                            76,938
               2. Winter crop project                       1,622,112
               3. Vegetable seed project                       540,900
               4. Greenhouse project                            35,985
               5. Tomato demonstration project                  30,404
               6. Barley demonstration project                  50,000
               7. Wheat seed distribution project              706,000
               8. Fish farm rehabilitation project             593,700
               9. Fish farming project                      5,066,181
               10. Date workshop                                21,620
               11. Butcher's focus group survey                  3,171
               12. Poultry industry overview update             21,000
               13. Crop land survey                             95,370
               14. Agriculture exposition                      130,719
               15. Cold-chain assessment                         3,910
               16. Refrigerated capacity survey                  5,000
               17. Bank training project                        40,000
               18. Windmill project                             33,797
               19. Orchard and vineyard project                728,437
                   Total                                    9,805,244

(1) The feed grain project cost $76,938. The documentation in the procurement files consisted
    of (1) a copy of the subcontract (2) a copy of a voucher with an accompanying purchase
    order for $7,750 to another subcontractor that was subcontracted to the first subcontractor
    and (3) a copy of a work order from the PRT. No other documentation was available. The
    contractor’s payment records did not identify payments of $76,938 to the vendors.

(2) The winter crop project cost $1,622,112. The documentation in the procurement files
    consisted of (1) a copy of one subcontract for $87,403 (2) a copy of a subcontract
    modification, (3) a copy of the project implementation plan, and (4) a copy of a work order
    from the PRT. In addition, the contractor’s payment records showed that cash was
    disbursed to two separate subcontractors in the amounts of $87,403 and $1,534,709.
    Although there was a copy of the subcontract for $87,403, the contractor was unable to
    provide a copy of the other subcontract for $1,534,709.




                                                                                            38
                                                                                    Appendix III


(3) The vegetable seed project cost $540,900. The documentation in the procurement files
    consisted of a copy of one subcontract for $540,900 and a copy of a work order from the
    PRT. The contractor’s payment records showed that funds were disbursed to this
    subcontractor for $540,900.

(4) The greenhouse project cost $35,985. The documentation in the procurement files
    consisted of a purchase order for $33,000 (not $35,985). Furthermore, the contractor’s
    payment records did not identify any payment for $35,985 or $33,000 to the vendor.

(5) The tomato demonstration project cost $30,404. The documentation in the procurement
    files consisted of three purchase orders totaling $30,404 to three separate vendors.
    Furthermore, the contractor’s payment records did not identify payments for $30,404 to the
    particular vendors.

(6) The barley demonstration project cost $50,000. The contractor had no procurement file or
    documentation for this project. Furthermore, the contractor’s payment records did not
    identify the $50,000 payments to the particular vendor.

(7) The wheat seed distribution project cost $706,000. The documentation in the procurement
    files consisted of (1) a purchase order in the amount of $34,560 and (2) a training proposal
    requesting $40,000. Furthermore, the contractor’s payment records noted no payments to
    the subcontractor for $34,560 or other payments that could be identified with the project.

(8) The fish farm rehabilitation project cost $593,700. The documentation in the procurement
    files consisted of (1) a subcontract (2) a payment for water pumped, and (3) a payment to
    remove sludge from the canal. The contractor’s payment records showed seven
    payments. However, one payment for $1,700 was made for an activity that was not part of
    the statement of work, and thus the payments for this activity exceeded the subcontract
    amount by $1,700.

(9) The fish-farming project cost $5,066,181. The documentation in the procurement files
    consisted of (1) a subcontract awarded to the Euphrates Fish Farm to provide 6 million
    carp fingerlings at a cost of $3,000,000, (2) nine purchase orders for palletized feed to the
    same Euphrates Fish Farm totaling $770,250, (3) four additional purchase orders totaling
    $81,680. These three items do not total to the project cost of $5,066,181. Furthermore,
    the contractor’s payment records did not identify payments to the subcontractor.

(10) The date workshop cost $21,620. The documentation in the procurement files consisted of
     (1) a memorandum discussing the Iraq date industry timetable and an outline for the Iraqi
     date-processing plant feasibility and (2) expense reports. The contractor’s payment
     records did not identify related payments.

(11) The butcher’s focus group survey cost $3,171. The documentation in the procurement files
     consisted of (1) a work order request from the USAID PRT representative for the proposed
     costs of $3,171 for a report on a focus group and (2) copies of two invoices totaling the
     cost of $3,171. However, the file did not contain proposals for quotations or bid
     submissions from suppliers. The contractor’s payment records did not identify related
     payments.




                                                                                              39
                                                                                    Appendix III


(12) The poultry industry overview update cost $21,000. The documentation in the procurement
     files consisted of (1) a purchase requisition with a form for an estimated $1,000, not the
     $21,000 cost of the project, (2) a purchase requisition for translation services, and (3) a
     summary report of a poultry farm survey.        The contractor’s payment records did not
     identify related payments.

(13) The crop land survey cost $95,370. The documentation in the procurement files consisted
     of (1) a photocopy of the subcontract for the feed grain project in the amount of $76,938
     related to a different project and (2) a copy of a report on feed grains. The contractor’s
     payment records did not identify related payments.

(14) The agricultural exposition cost $130,719. The documentation in the procurement files
     consisted of a $75,000 invoice for a promoter’s fee. However, the files contained the
     following anomalies:

     The proposal to participate in this activity was dated October 14, 2008, whereas the
      purchase order was dated September 24, 2008, which is earlier than the proposal date.

     The justification for sole source was November 17, 2008, which was after the event took
      place.

     The invoice was dated March 26, 2008, for $75,000 which was approximately 8 months
      before the event took place.

     An additional two invoices existed—dated September 8 and December 14, 2008—each
      for $37,500, totaling $75,000.

     No further documentation existed to clarify these costs or to account for the additional
      costs of $55,719.

    The contractor’s payment records did not identify related payments.

(15) The cold-chain assessment cost $3,910. The documentation in the procurement files
     consisted of (1) a purchase order with payment receipts and (2) a copy of a report based
     on a contractor survey. No other procurement records were available. The contractor’s
     payment records did not identify related payments.

(16) The refrigerated capacity survey cost $5,000. The procurement files did not contain any
     support. The contractor’s payment records did not identify related payments.

(17) The bank training project cost $40,000. The documentation in the procurement files
     consisted of a copy of the subcontract to train officials from five banks. The subcontract’s
     statement of work stated that the subcontractor should submit for approval the classroom
     agenda, topics covered, dates of training, names of trainers by bank location, and names
     and positions of people trained. The procurement and performance file did not contain any
     of this documentation. Although the contractor’s payment records showed $40,000 was
     paid, no gross sales or new jobs created were reported for this project activity even though
     the project had been closed since December 2009.




                                                                                              40
                                                                                    Appendix III


(18) The windmill project cost $33,797. The documentation in the procurement files consisted
     of (1) a purchase order to purchase three windmills from a company in Pakistan and (2) the
     bids from three vendors. The contractor’s payment records do not show $33,797 in
     payments to this vendor. During the site visit to a feedlot in Taji, the audit team also
     inspected one windmill; it was not working.

(19) The orchard vineyard project cost $728,437. The documentation in the procurement files
     consisted of (1) a request for consent for four, firm-fixed-priced purchase orders totaling
     $697,567, (2) a copy of a memorandum of negotiation to purchase trees and vines for an
     estimated cost of $730,117 of which $32,550 was to be paid for an unexpected 15 percent
     cost, and (3) a copy of an internal checklist used by the contractor for project review and
     approval. The contractor’s payment records did not reflect $728,437 in payments to these
     vendors.




                                                                                             41
                                                                                       Appendix IV



GRANTS WITH QUESTIONED
COSTS
                       Special Conditions Grants With Questioned Costs

                                                              Questioned Costs
                                 Grant
                                                                     ($)
              1.   Retail farmers’ market project                   327,420
              2.   Canning factory revitalization project         5,078,631
              3.   Mushroom farm project                            623,287
              4.   Packing shed project at Rabee                    459,300
              5.   Packing shed project at Taji                     459,300
                   Total                                          6,947,938

(1) The retail farmers’ market project cost $327,420. The contractor’s project files showed no
    documentation that the contractor had monitored or evaluated the grantee’s performance or
    reports as required. Furthermore, the contractor had not monitored adherence to special
    conditions of the grant, including acceptable management, accounting, and financial control
    systems. According to a contractor work plan, prior to this award, USAID/Iraq had in 2004
    awarded $1,000,000 to another contractor to construct this same retail farmers’ market. The
    market was never occupied and had fallen into disrepair.

(2) The canning factory revitalization project cost $5,078,631. The contractor’s project files
    showed no documentation that the contractor had monitored or evaluated the grantee’s
    performance or reports as required. Furthermore, the contractor had not monitored
    adherence to special conditions of the grant, including acceptable management, accounting,
    and financial control systems. USAID/Iraq hired a consultant to provide technical and
    business advice to the canning factory, to restart the tomato line, and to work with the
    factory manager to develop a business plan and create a regional marketing strategy.
    Despite these efforts, the consultant’s report stated: “Most of the line should not be restarted
    because the equipment and facilities that house them are not fit to handle human food.”

(3) The mushroom farm project cost $623,287. The contractor’s project files showed no
    documentation that the contractor had monitored or evaluated the grantee’s performance or
    reports as required. Furthermore, the contractor had not monitored adherence to special
    conditions of the grant, including acceptable management, accounting, and financial control
    systems.

(4) The packing shed project at Rabee cost $459,300. The contractor’s project files showed no
    documentation that the contractor had monitored or evaluated the grantee’s performance or
    reports as required. Furthermore, the contractor had not monitored adherence to special
    conditions of the grant, including acceptable management, accounting, and financial control
    systems. During a site visit to this packing shed, the grantee noted strawberry fields and
    other orchard and vineyard projects that had been awarded to the grantee in addition to the
    packing shed grant. During the site visit, we noted that the grantee’s accounting records
    showed that the grantee had not segregated income, expenses, and sales associated with


                                                                                                 42
                                                                                        Appendix IV


   USAID’s grant activities from the grantee’s other business activities, such as dates and the
   importation of certain fruits and vegetables from Syria that the grantee repackaged and
   distributed to wholesalers in Iraq.

(5) The packing shed project at Taji also cost $459,300. The contractor’s project files showed
    no documentation that the contractor had monitored or evaluated the grantee’s performance
    or reports as required. Furthermore, the contractor had not monitored adherence to special
    conditions of the grant, including acceptable management, accounting, and financial control
    systems. The audit team visited the packing shed and observed that its operations had
    been staged for the visit; for example, employees’ uniforms still had the creases from the
    packages. The packing shed was dirty and unhygienic. The eggplants being packaged the
    day of the visit felt cold (almost frozen) and were therefore not supplied from the
    surrounding farmers as the grant had intended. The owner had not developed supplier
    relationships with the 2,400 local farmers whom the grant had also intended to benefit. The
    owner also acknowledged that he had not been asked by the contractor to provide
    accounting or financial data (part of the grant terms). Part of these problems can be
    attributed to a change in grant terms of which USAID/Iraq was unaware. The original grant
    terms required an independent and satisfactory evaluation and approval of the packing shed
    construction work by a certified engineering company. The contractor modified these terms
    to allow the independent and satisfactory evaluation and approval of packing shed
    construction to be completed by the contractor’s own engineering and technical committee.
    According to an e-mail in the project files, this modification was necessary to allow flexibility
    to complete the contract quickly. During the site visit, the audit team noted the poor-quality
    construction of the packing shed. One of the agriculture advisors to the local PRT also
    observed several construction problems during site visits. Furthermore, the owner had
    several other businesses, but the owner had not segregated income, expenses, and sales.




                                                                                                  43
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel.: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
